<html>
<title> - JAMMING THE IED ASSEMBLY LINE: IMPEDING THE FLOW OF AMMONIUM NITRATE IN SOUTH AND CENTRAL ASIA</title>
<body><pre>[Senate Hearing 111-782]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-782

JAMMING THE IED ASSEMBLY LINE: IMPEDING THE FLOW OF AMMONIUM NITRATE IN 
                         SOUTH AND CENTRAL ASIA

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            NOVEMBER 18, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                  U.S. GOVERNMENT PRINTING OFFICE
 63-236 PDF               WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
KIRSTEN E. GILLIBRAND, New York
CHRISTOPHER A. COONS, Delaware
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES E. RISCH, Idaho
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
CHRISTOPHER A. COONS, Delaware

                              (ii)        











                            C O N T E N T S

                              ----------                              
                                                                   Page

Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Coons, Hon. Christopher A., U.S. Senator from Delaware, statement    18
Goodman, Mary Beth, Senior Economic Adviser to the Special 
  Representative to Afghanistan and Pakistan, U.S. Department of 
  State..........................................................     4
    Prepared statement...........................................     6
Risch, Hon. James E., U.S. Senator from Idaho, opening statement.     4
Sedney, David, Deputy Assistant Secretary of Defense for 
  Afghanistan, Pakistan, and Central Asia, U.S. Department of 
  Defense........................................................    13
    Joint prepared statement with BG Michael H. Shields..........    14
Shields, BG Michael H., Deputy Director for Operations and 
  Requirements, Joint Improvised Explosive Device Defeat 
  Organization (JIEDDO)..........................................    16
Woods, John P., Deputy Assistant Director for Homeland Security 
  Investigations, National Security Division, U.S. Department of 
  Homeland Security..............................................     8
    Prepared statement...........................................    10

                                 (iii)



 
JAMMING THE IED ASSEMBLY LINE: IMPEDING THE FLOW OF AMMONIUM NITRATE IN 
                         SOUTH AND CENTRAL ASIA

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2010

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 4:31 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Casey, Coons, and Risch.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. This hearing will come to order. Thank you 
for being here today, and I'm grateful that both our witnesses 
and others were able to adjust their schedules to accommodate 
my schedule today. We had to move the hearing from 2:15 to this 
hour, and we're grateful for that.
    I will have a brief opening statement and Senator Risch, 
our ranking member, will have an opening statement, and then 
we'll get as fast as we can to the testimony of our witnesses.
    Last week Army SPC Anthony Vargas, 27 years old, of 
Reading, PA, lost his life in Nangarhar province, Afghanistan. 
He had wounds suffered when insurgents attacked his unit using 
an improvised explosive device. He was assigned to the 1st 
Squadron, 61st Cavalry Regiment, 4th Brigade Combat Team, 101st 
Airborne Division, based at Fort Campbell, KY. Specialist 
Vargas is survived by his wife Luisa and three children who 
live in Clarksville, TN. His father, Julio Vargas, and mother, 
Maria, live in Reading, PA.
    Marine LCpl Larry Johnson, from my home town of Scranton, 
PA, was killed in Afghanistan last February. Lance Corporal 
Johnson was trained as a combat engineer whose job it is to 
seek and destroy improvised explosive devices. He was 19 years 
old. I for a couple months had his funeral or prayer card on my 
desk, and I hadn't looked at it in a long time, and it's hard 
to believe that it was February 18 that he died. Of course, on 
the back of the prayer card from the funeral home was the 
Marine's Prayer, a lot of inspiration for all of us when we 
consider the topic of this hearing and also the destructive 
impact of IEDs and what we must do to take every step possible 
to combat it.
    In March of this year, Pakistani police seized 6,600 pounds 
of ammonium nitrate stashed in a fruit market in Lahore, 
Pakistan. Investigators believe that the three men arrested in 
the seizure were connected to a series of suicide bomb blasts 
that killed more than 50 people.
    The main explosive ingredient used in most IED attacks 
against our troops, coalition forces, Afghan and Pakistani 
civilians is ammonium nitrate. Today, this committee and this 
subcommittee, the Subcommittee on Near Eastern and South and 
Central Asian Affairs, meets to examine the grave implications 
of the threat posed by ammonium nitrate and other precursor 
chemicals in IEDs. Ammonium nitrate is a common threat faced by 
Pakistan, Afghanistan, and the United States and we need to 
collectively do more to restrict the flow of ammonium nitrate 
into the region.
    The statistics in IEDs in Afghanistan are sobering. In 2009 
alone, more than 6,000 IEDs were discovered, the vast majority 
of which used ammonium nitrate as their main explosive 
ingredient. A recent Pentagon report said that fully 80 percent 
of IEDs in Afghanistan are made using ammonium nitrate. 
According to CSIS, IEDs are the No. 1 killer of U.S. and 
coalition forces, and through the first 9 months of this year 
190 U.S. forces have perished and an astounding 2,459 have been 
wounded by IEDs. Since January 1 of this year, more than Afghan 
civilians have been killed by IEDs. So 190 of our U.S. forces, 
more than 2,400 individuals wounded, and 1,200 Afghans.
    In response, the Afghan Government banned the use of 
ammonium nitrate as a fertilizer earlier this year, and despite 
this effort and despite vigilance by the Afghan security 
forces, IED incidents and casualties have steadily increased. 
The Afghan Government appeared committed to this fight and has 
enacted the appropriate legal measures and enforcement efforts. 
But ammonium nitrate is still ubiquitous in Afghanistan due to 
smuggling along supply routes from its neighbors, and 
particularly from Pakistan.
    The amounts of ammonium nitrate reportedly ferried into 
Afghanistan from Pakistan are staggering. The Los Angeles Times 
reported in May that as much as 85 tons of ammonium nitrate was 
smuggled into Afghanistan and Pakistan in a single night, a 
shipment that could yield more than 2,500 IEDs.
    Now, what can Pakistan do to address this common threat? A 
couple of things: First of all, the Pakistani Parliament should 
pass legislation that better restricts ammonium nitrate and 
other explosive precursor chemicals like potassium chlorate. 
While I understand that farmers in Pakistan rely on 
fertilizers, especially for cotton, Pakistani officials may 
want to consider a temporary ban during this precarious period. 
A local ban was instituted in the Multan district earlier this 
year as militant attacks were on the rise. At a minimum, 
Pakistani authorities need a coherent legislative framework in 
order to better regulate this dangerous chemical.
    The second thing they could do is that more needs to be 
done to track the flow of ammonium nitrate inside of Pakistan 
itself. I referenced the seizure last March in Lahore. A senior 
Lahore police official in charge of that investigation said 
that his officers could have tracked down the middlemen who 
supplied the ammonium nitrate to the militants of Pakistan if 
Pakistan required manufacturers to put tracking numbers on each 
fertilizer bag. He said at the time, ``It's a totally 
undocumented market. There's no reliable way of finding out who 
bought the bags. That is a huge problem,'' he said.
    Finally, the United States needs to work more closely with 
Pakistan to ensure that ammonium nitrate does not flow across 
the border to Afghanistan. The British have been very helpful 
in working with Pakistani border guards to provide training and 
equipment that better detect and interdict ammonium nitrate and 
other illicit materials as they cross the border.
    This focus on border security could have a positive 
spillover effect on restricting the flow of other illicit 
material across the border. The Afghan-Pakistani border is 
famously porous and there's little expectation that it can be 
completely sealed. However, the major crossings should receive 
special priority for our efforts. I look forward to hearing 
from our witnesses on their recommendations as to how we can 
improve on the borders.
    I've reached out to numerous senior officials both here and 
in Pakistan to implore them to focus on the fundamental threat 
posed against our troops. I've spoken to General Petraeus on 
the day he was confirmed. Of course, many of us are grateful 
for his leadership and service. Former Ambassador Anne 
Patterson has been a stalwart leader on this issue in 
Islamabad, working to ensure that ammonium nitrate was part of 
bilateral discussions with the Pakistanis. I look forward to 
continuing this dialogue with her and with her distinguished 
successor Ambassador Cameron Munter.
    In the Senate, I led a bipartisan resolution in June 
calling for governments in the region to effectively monitor 
and regulate the manufacture, sale, transport, and use of 
ammonium nitrate.
    We've witnessed some positive developments. Ambassador 
Holbrooke's team has focused in on this problem and has 
intensified its engagement. Homeland Security has also played a 
lead role in Project Global Shield. Later this month, the 
Pakistani Government will host a national counter-IED forum, 
taking essential steps on this issue.
    Pakistan has also suffered horrific losses of security 
personnel and civilians over the past few years. This fact 
should be acknowledged as we deliberate on the war in 
Afghanistan. But we must do all we can to address the supply 
lines that lead to these attacks.
    So we have much to do and I want to move right to our 
panels, but I just will provide a brief introduction and then 
ask our ranking member, Senator Risch, for his opening 
comments. We are honored by two distinguished panels to help us 
assess these issues. First, we will hear from Mary Beth 
Goodman, Senior Economic Adviser to Ambassador Holbrooke, the 
Special Representative to Afghanistan and Pakistan.
    Second, we will hear from John Woods, Deputy Assistant 
Secretary for Homeland Security--Homeland Security 
Investigations, I should say, National Security division, 
within the U.S. Department of Homeland Security.
    Next we'll hear from David Sedney, Deputy Assistant 
Secretary of Defense for Afghanistan, Pakistan, and Central 
Asia, who will share the perspective of the Pentagon and, 
obviously, the U.S. Department of Defense.
    Finally, we'll also hear from BG Michael Shields, the 
Deputy Director for Operations and Requirements, the Joint 
Improvised Explosive Device Defeat Organization, known as 
``JIEDDO.''
    We have much to do today and we're grateful for the time 
that our witnesses are providing, and we're grateful for those 
who are in attendance today; and I want to turn the microphone 
over to our ranking member, Senator Risch.

           OPENING STATEMENT OF HON. JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you, Chairman Casey. Thank you very 
much for holding this important hearing. Those of us--many of 
us serving here in Congress are well aware of the problem with 
ammonium nitrate. We don't know as much of the details as we 
should. Many of us come from parts of the country where 
ammonium nitrate is a very common commodity, anyone can buy it, 
and anyone with a pickup truck can haul enough away to cause 
serious damage. Yet, by and large, we've gotten along 
relatively well in the United States with some notable 
exceptions, of course.
    The widespread use of ammonium nitrate, not only in the 
United States but around the world, as a legitimate fertilizer 
is widespread and as a result of that there are unique 
challenges, ones that those working with this particular 
problem I'm sure have a very difficult time with. One of the 
reasons I'm very interested in this hearing is to get the 
details of how you dovetail the two issues, that it's so 
widespread, the use is so widespread, and second that in 
certain parts of the world it has to be very closely monitored.
    So with that, I'm anxious to hear from the witnesses. I do 
have another commitment. We had scheduling issues with this. I 
have the written testimony from the witnesses, which I'll study 
carefully, and I'd respectfully request that you hold the 
record open, Chairman Casey, so that I can submit questions for 
the record, if you would be so kind.
    Senator Casey. So ordered.
    Senator Risch. Thank you very much, and with that I'm going 
to excuse myself. Thank you so much.
    Senator Casey. Senator Risch, thank you, and thank you for 
taking the time to be here with us today, especially in light 
of the scheduling change.
    Senator Risch. Thank you.
    Senator Casey. Thank you.
    Ms. Goodman, thank you very much for being here. Why don't 
we start with you. We'll just go right to left. Thank you.

STATEMENT OF MARY BETH GOODMAN, SENIOR ECONOMIC ADVISER TO THE 
   SPECIAL REPRESENTATIVE TO AFGHANISTAN AND PAKISTAN, U.S. 
                      DEPARTMENT OF STATE

    Ms. Goodman. Thank you, Senator Casey, and thanks for the 
invitation to be here today. This is the first time that I've 
appeared before the subcommittee and I am truly honored to be 
here, particularly for such a critical issue.
    On behalf of Secretary Clinton and Ambassador Holbrooke, 
the Department is appreciative of the helpful role that the 
subcommittee has played in drawing attention to the important 
issues in South and Central Asia, and particularly your 
leadership in helping to try and find a solution to the lethal 
problem of improvised explosive devices. The bipartisan Senate 
Resolution 570 that passed here in June and called for an 
increased effort by the governments in the region to monitor 
and regulate the ammonium nitrate was an important step in 
bringing awareness to this endeavor.
    Given the interagency nature of our efforts to combat the 
IED assembly line out in the field, I'm pleased to be here 
today with my colleagues from Department of Defense and 
Department of Homeland Security.
    As you know, the IEDs are responsible for a vast majority 
of coalition fatalities and injuries and are also the cause of 
significant civilian deaths among Pakistani and Afghan 
citizens. These deaths are the results of a complex and global 
network of both legal and illegal activities that facilitate 
the flow of lethal aid into Afghanistan from neighboring 
countries, including Pakistan.
    The Office of the Special Representative for Afghanistan 
and Pakistan coordinates the Department of State's counter-IED 
response. Our three-pronged strategy is to: one, work 
cooperatively with both the governments of Afghanistan and 
Pakistan to develop their domestic regulatory regimes; two, to 
address the issues of transshipment; and three, to address the 
smuggling issues.
    A majority of the IEDs are constructed from the fertilizer 
calcium ammonium nitrate, which is legally and legitimately a 
dual-use traded product. However, CAN, as it is commonly known, 
is not widely used to support agricultural production in either 
Afghanistan or Pakistan.
    On January 21, 2010, President Karzai signed a Presidential 
decree banning the import, production, transportation, use, 
sale, and storage of ammonium nitrate fertilizer. This decree 
also authorized the Afghan National Security Forces and ISAF to 
seize any existing supplies in Afghanistan after a 1-month 
grace period for farmers to turn in their caches. However, the 
importation and distribution of ammonium nitrate for use in 
mining and construction is still legal throughout Afghanistan. 
While there are regulations in place to monitor and control the 
use of CAN for mining and construction, to date no permits have 
been issued by the government for these purposes. In the 
absence of these permits, search and seizure authority exists 
only for--currently exists for ammonium nitrate in any form.
    During the recent United States-Pakistan strategic 
dialogue, Pakistan announced that it has recently established a 
national counter-IED forum that is going to host a seminar on 
November 25 to address the first steps in developing a national 
strategy. This seminar will bring together Pakistani 
stakeholders as well as members of the international community 
to discuss legislative and law enforcement strategies to combat 
the proliferation of IEDs and to halt the flow of their deadly 
input. This seminar will establish the foundation on which 
Pakistan will build its counter-IED strategy.
    While urea and di-ammonium phosphate are the predominant 
fertilizers in Pakistan, we know that there are two plants, the 
Pak-Arab Fertilizer Coalition Co. in Multan and the National 
Fertilizer Corp. in Lahore, which legally produce ammonium 
nitrate fertilizer in quantities sufficient to meet Pakistani 
demands. Pakistan customs data reports that in 2009 Pakistan 
imported ammonium nitrate fertilizer from Sweden, Germany, 
Russia, China, and Iran. Given the low level of usage for 
ammonium nitrate fertilizer in Pakistan's domestic agricultural 
use, this customs data indicates that the import levels far 
exceed domestic usage and thus may have been legally 
transshipped onward to Afghanistan.
    Ambassador Holbrooke and our team at the State Department 
are working to raise awareness of the IED issue beyond the 
borders of Afghanistan and Pakistan. The State Department has 
worked cooperatively with the Department of Homeland Security 
to launch Operation Global Shield and we were pleased to fund 
the initial session to train and launch this effort in October 
at the World Customs Organization in Brussels.
    This program brings together the expertise of the World 
Customs Organization, Interpol, and the United Nations Office 
on Drugs and Crime to monitor the trade flows of 14 precursor 
chemicals, including ammonium nitrate. This is in an effort to 
raise global awareness of the harmful effects of these trade 
flows on our troops in Afghanistan and to improve the ability 
of customs and border officials in Afghanistan, Pakistan, and 
the Central Asian states to identify and seize the precursor 
chemicals smuggled across the borders and used in the 
manufacture of IEDs.
    The State Department will continue to work with our 
interagency partners to encourage the Government of Pakistan to 
take swift and concrete action against IEDs and to actively 
promote implementation of initiatives to support this goal. We 
have already seen an increased engagement from Pakistan on the 
counter-IED issue and, although their efforts are nascent, 
Pakistan is working constructively to develop a coherent 
strategy to stop the proliferation of IEDs into Afghanistan.
    Embassy Islamabad will support follow-on training in early 
December in Karachi to train front-line Pakistani customs 
officers on interdiction techniques for IED precursors. Embassy 
Kabul is also going to sponsor similar training this month as 
well.
    We will also continue to help the Government of Afghanistan 
work to enforce their ban on ammonium nitrate and to aid in the 
detection and seizure of the substances at the border. Most 
importantly, we're going to encourage direct engagement between 
Afghan and Pakistan, Afghan and Pakistani colleagues, to ensure 
that cooperation between civilian and military agencies on both 
sides of the border is at the center of the efforts to stop the 
flow of IED components.
    Mr. Chairman, we look forward to working with you and your 
office on the important issues in the months ahead and I look 
forward to taking your questions today.
    Thank you.
    [The prepared statement of Ms. Goodman follows:]

Prepared Statement of Mary Beth Goodman, Senior Economic Adviser to the 
Special Representative to Afghanistan and Pakistan, U.S. Department of 
                                 State

    Senator Casey, Ranking Member Risch, members of the committee, 
thank you for your invitation to testify today on the critical issue of 
impeding the flow of ammonium nitrate in South Asia. On behalf of 
Secretary Clinton and Ambassador Holbrooke, the Department is 
appreciative of the helpful role this subcommittee has played in 
drawing attention to important issues in South and Central Asia and 
your leadership, Mr. Chairman, in trying to find a solution to the 
lethal problem of Improvised Explosive Devices (IEDs). The bipartisan 
Senate Resolution 570 that passed this Chamber in June and called for 
an increased effort by the governments in the region to monitor and 
regulate ammonium nitrate was an important step forward in bringing 
awareness to this endeavor.
    Given the interagency nature of our efforts to combat the IED 
assembly line out in the field, I am pleased to be joined today by my 
colleagues from the Department of Defense and the Department of 
Homeland Security.
    As you know, IEDs are responsible for the vast majority of 
coalition fatalities and injuries and are the cause of significant 
civilian deaths among Pakistani and Afghan citizens. These deaths are 
the result of a complex and global network of both legal and illegal 
activities that facilitate the flow of lethal aid into Afghanistan from 
neighboring countries, including Pakistan.
    A majority of these IEDs are constructed from the fertilizer 
calcium ammonium nitrate (CAN), which is a legally and legitimately 
traded dual use product. CAN, as it is commonly known, is not widely 
used to support agriculture production in either Afghanistan or 
Pakistan.
    On January 21, 2010, President Karzai signed a Presidential decree 
banning the import, production, transportation, use, sale, and storage 
of ammonium nitrate fertilizer. The decree also authorized the Afghan 
National Security Forces (ANSF) and International Security Assistance 
Force (ISAF) to seize existing supplies in Afghanistan after a 1-month 
grace period for farmers, who could hand over their supplies in return 
for compensation for a more effective urea-based fertilizer. However 
the importation, production, and distribution of ammonium nitrate for 
use in the mining and construction sectors is still legal throughout 
Afghanistan. While there are regulations in place to monitor and 
control the use of CAN for mining and construction, to date, no permits 
have been issued by the government for these purposes. In the absence 
of these permits, search and seizure authority exists for ammonium 
nitrate in any form.
    The Office of the Special Representative for Afghanistan and 
Pakistan coordinates the Department of State's counter-IED response. 
Our three-pronged strategy is to: (1) work cooperatively with both the 
governments of Afghanistan and Pakistan to develop their domestic 
regulatory regimes; (2) address issues of transshipment, and, (3) 
address the smuggling issues.
    Our Embassies in Kabul and Islamabad are actively engaged with the 
governments in both Afghanistan and Pakistan to raise the profile of 
this critical issue and encourage our partners to take concrete action 
to combat IEDs.
    I returned from Pakistan yesterday, where we discussed this issue 
with the Government of Pakistan and our international partners. The 
Government of Pakistan has recently established a National Counter-IED 
Forum that seeks to develop a national strategy to combat IEDs and 
coordinate the Government's response. During the recent U.S.-Pakistan 
Strategic Dialogue, Pakistan announced that its National Counter-IED 
Forum will host a seminar on November 25 as a first step in developing 
a national strategy. This seminar will bring together Pakistani 
stakeholders as well as members of the international community to 
discuss legislative and law enforcement strategies to combat the 
proliferation of IEDs and halt the flow of their deadly inputs. This 
seminar will establish the foundation on which Pakistan will build its 
counter-IED strategy. In addition, Pakistan is engaged in law 
enforcement activities directed at stemming the flow of illegal 
shipments of CAN and precursor explosive materials into Afghanistan.
    While urea and di-ammonium phosphate are the prominent fertilizers 
in Pakistan, we know that two plants--the Pak-Arab Fertilizer in Multan 
and the National Fertilizer Corporation in Lahore--legally produce 
ammonium nitrate fertilizer. The Web site for the Pak-Arab plant in 
Multan states that ammonium nitrate fertilizer is produced on demand 
only and not for general export. Pakistan customs data reports that in 
2009, Pakistan imported ammonium nitrate fertilizer from Sweden, 
Germany, Russia, China, and Iran. Given the low level of usage for 
ammonium nitrate fertilizer in Pakistan's domestic agricultural use, 
the customs data indicates that import levels far exceed domestic usage 
and thus may have been legally transshipped onward to Afghanistan.
    To raise global awareness of the transshipment of fertilizer into 
the region, the State Department worked cooperatively with the 
Department of Homeland Security to launch Operation Global Shield. This 
program brings together the expertise of the World Customs 
Organization, Interpol, and the United Nations Office of Drugs and 
Crime to monitor the trade flows of 12 precursor chemicals, including 
ammonium nitrate, in an effort to raise global awareness of the harmful 
effects of the flow of these products on our troops in Afghanistan and 
improve the ability of customs and border officials in Afghanistan, 
Pakistan, and the Central Asian states, to identify and seize precursor 
materials smuggled across the Afghan border to be used in the 
manufacture of IEDs.
    Ambassador Holbrooke and our team at the State Department are 
working to raise awareness of the IED issue beyond Afghanistan and 
Pakistan. On August 16, the Department demarched 62 countries to urge 
participation in Operation Global Shield. The State Department was 
pleased to fund the initial training session to launch Operation Global 
Shield in Brussels in October at the World Customs Organization. The 
Department is also working with private industry to develop 
alternative, less explosive variants of CAN with the goal of 
encouraging fertilizer producers in the United States, Pakistan, and 
elsewhere to adopt technologies to make their products less useful in 
IEDs.
    Pakistan is engaged on the counter-IED issue, and although its 
efforts are nascent, it is working constructively to develop a coherent 
strategy to stop the proliferation of IEDs into Afghanistan. Embassy 
Islamabad will support follow-on training in early December in Karachi 
to train front line Pakistani customs officers on interdiction 
techniques for IED precursors. We are pleased that senior Pakistani 
military officers from Pakistan's Explosives Ordnance Disposal Company 
will also attend this training. This is among the first times that the 
Pakistani military provided training to Customs officials and marks an 
important step both for capacity building and for interagency 
cooperation.
    We will continue to work with our interagency partners to encourage 
the Government of Pakistan to take swift and concrete action against 
IEDs and actively promote implementation of initiatives in support of 
this goal. We will also continue to help the Government of Afghanistan 
work to enforce their ban on ammonium nitrate and to aid in the 
detection and seizure of the substance. Most importantly, we encourage 
direct engagement between Afghanistan and Pakistan to ensure that 
cooperation between civilian and military agencies on both sides of the 
border is at the center of efforts to limit the flow of IED components 
in the region.
    Mr. Chairman, we look forward to continuing to work with your 
office on this important issue in the months ahead. I look forward to 
taking your questions.

    Senator Casey. Thank you very much.
    Mr. Woods.

   STATEMENT OF JOHN P. WOODS, DEPUTY ASSISTANT DIRECTOR FOR 
 HOMELAND SECURITY INVESTIGATIONS, NATIONAL SECURITY DIVISION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Woods. Thank you, Chairman Casey. On behalf of 
Secretary Napolitano and Assistant Secretary Morton, I thank 
you for the opportunity to testify today.
    Many agencies play a critical role in this important issue 
and I am proud to be here alongside my counterparts from the 
Department of Defense and the Department of State. The October 
28 attempt to ship explosive devices through air cargo and the 
attempted bombing of Northwest Flight 253 on December 25 of 
last year underscore the threat that improvised explosive 
devices, or IEDs, pose to our national security. As I will 
discuss today, ICE is at the forefront of our Nation's civilian 
efforts to disrupt, dismantle, and investigate the 
international movement of IED components and explosive 
precursors.
    ICE is well positioned to accomplish this mission by using 
its statutory authority to investigate and enforce criminal 
violations of all U.S. export laws as it relates to military 
items, controlled dual-use commodities, and sanctioned or 
embargoed countries. Further, we have the capability to expand 
the scope of our investigations beyond our domestic offices to 
our 67 attache offices situated throughout the world.
    To combat the illicit use of precursor chemicals by 
terrorists or other criminal organizations who manufacture 
IEDs, ICE initiated Project Global Shield, an unprecedented, 
multilateral law enforcement effort aimed at combating the 
illicit diversion and trafficking of precursor chemicals by 
monitoring their cross-border movements. This is a joint ICE-
CBP global project, which ICE proposed at the World Customs 
Organization Enforcement meeting last spring in Brussels. It is 
based on a collaboration among the World Customs Organization, 
Interpol, and the United Nations Office of Drugs and Crime. 
This mutual undertaking represents the first time that
the threat posed by explosive precursors has been collectively 
addressed by the international community.
    The ultimate goal of Global Shield is to identify and 
interdict falsely declared precursor chemicals, initiate 
investigations, and uncover smuggling networks. In doing so, 
ICE and CPB aim to build capacity among our strategic partners 
and to detect illicit shipments of explosive precursors and 
promote cooperation among customs and police administrations in 
combating the illicit diversion of ammonium nitrate and other 
precursors along the global supply chain.
    Global Shield seeks to facilitate legitimate trade while 
making it more difficult for those with nefarious purposes to 
get their hands on components necessary for IEDs. By working 
together and sharing real-time information and intelligence, 
countries will be able to verify the legitimacy of individual 
shipments while identifying, disrupting, and dismantling the 
terrorist networks involved in the illicit procurement of these 
chemicals via front companies and complicit middlemen.
    We believe that Global Shield will provide invaluable data 
for trend analysis to increase the global understanding of the 
risks posed by precursor chemicals and their illicit movement. 
The program will identify best practices to combat illicit 
diversion and trafficking of precursor chemicals used to 
manufacture explosives, as well as monitor and track legitimate 
shipments of precursor chemicals to assist in identifying high-
risk routes for future enforcement activity. Global Shield will 
set the foundation for future multilateral initiatives to deny 
terrorists access to other explosive components.
    As an enhancement to our mission in thwarting this illegal 
trade activity and as a key part of the President's export 
control reform initiative, President Obama signed Executive 
Order 13558 this past Tuesday, which created the Export 
Enforcement Coordination Center, a multiagency center that will 
be housed within ICE and serve as the primary government forum 
for the exchange of information and intelligence related to 
export enforcement.
    One of ICE's highest priorities is to prevent terrorist 
groups and others who might wish to inflict harm by illegally 
obtaining U.S. military products and sensitive technology, 
including weapons of mass destruction or WMD components.
    All of these efforts, along with the efforts described in 
full detail within my written remarks, are part of our 
comprehensive strategy that focuses on assuring IED components 
and precursors do not reach the hands of terrorists or others 
who may wish to inflict harm and prosecute those who subvert 
the rule of law and threaten our national security.
    ICE remains dedicated and committed to this mission and we 
look forward to working with the subcommittee on its efforts.
    Thank you once again for the opportunity to appear before 
you today and I would be pleased to take any questions.
    [The prepared statement of Mr. Woods follows:]

    Prepared Statement of John P. Woods, Deputy Assistant Director, 
    Homeland Security Investigations, U.S. Immigration and Customs 
              Enforcement, Department of Homeland Security

                              introduction
    Chairman Casey, Ranking Member Risch, and distinguished members of 
the subcommittee, on behalf of Secretary Napolitano and Assistant 
Secretary Morton, I would like to thank you for the opportunity to 
testify today. The October 28, 2010, attempt to ship explosive devices 
through air cargo, and the attempted bombing of Northwest Airlines 
Flight 253 on December 25, 2009, underscore the threat that improvised 
explosive devices (IEDs) pose to our national security. IEDs are the 
most prevalent form of explosive employed by terrorists around the 
world and the single greatest threat to coalition forces in 
Afghanistan. According to military officials in Kabul, more than 4,100 
bombs were either intentionally exploded or discovered by coalition 
forces in 2008, and more than 6,000 IEDs were discovered in 2009. The 
vast majority of these IEDs were produced from ammonium nitrate. As I 
will discuss today, U.S. Immigration and Customs Enforcement (ICE) is 
at the forefront of the nation's civilian efforts to disrupt, 
dismantle, and investigate the international movement of IED components 
and explosives precursors.
    ICE is well-positioned to accomplish this mission. We have the 
largest force of investigators within the Department of Homeland 
Security, and we protect the nation by investigating criminal 
organizations that seek to exploit weaknesses in legitimate trade, 
travel, and financial systems to further their illicit enterprises. 
More than 6,500 ICE special agents detect, disrupt, and dismantle 
cross-border criminal networks engaged in the smuggling of people, 
narcotics, bulk cash, weaponry and weaponry-related components across 
our borders. ICE also has full statutory authority to investigate and 
enforce criminal violations of all U.S. export laws related to military 
items, controlled ``dual-use'' commodities, and sanctioned or embargoed 
countries. Further, we have the capability to expand the scope of our 
investigations beyond our domestic offices to 67 attache offices 
situated throughout the world.
                         project global shield
    To combat the illicit use of precursor chemicals by terrorist and 
other criminal organizations to manufacture IEDs, ICE initiated Global 
Shield--an unprecedented, multilateral law enforcement effort aimed at 
combating the illicit diversion and trafficking of precursor chemicals 
for making explosives by monitoring their cross-border movements. This 
joint ICE/U.S. Customs and Border Protection (CBP) global project--
proposed by ICE at the World Customs Organization (WCO) Enforcement 
Committee Meeting in Brussels, Belgium, during the spring of 2010--is 
based on collaboration among the WCO, INTERPOL, and the United Nations 
Office of Drugs and Crime (UNODC). This collaborative undertaking 
represents the first time that the threat posed by explosives 
precursors has been collectively addressed by the international 
community.
    The ultimate goal of Global Shield is to identify and interdict 
falsely declared precursor chemicals, initiate investigations, and 
uncover smuggling networks. In doing so, ICE and CBP aim to build 
capacity among strategic partners to detect illicit shipments of 
explosive precursors and promote cooperation among customs and police 
administrations in combating the illicit diversion of ammonium nitrate 
and other explosives precursors along the global supply chain.
    Customs and police administrations currently participate in several 
successful operational initiatives designed to combat the illicit 
diversion and trafficking of precursor chemicals used by criminal 
organizations to manufacture narcotics. Prior to Global Shield, no 
similar initiative existed to combat the trafficking of precursor 
chemicals used to manufacture explosives. The methodology of Global 
Shield draws on lessons learned and best practices from similar 
antinarcotic precursor projects and operations.
    Global Shield seeks to facilitate legitimate trade while making it 
more difficult for those with nefarious purposes to get their hands on 
components for IEDs. By working together and sharing real-time 
information and intelligence, countries will be able to verify the 
legitimacy of individual shipments while identifying, disrupting, and 
dismantling the terrorist networks involved in the illicit procurement 
of these chemicals via front companies and complicit middlemen. ICE and 
CBP are working closely with stakeholders from across the federal 
government, including the Departments of State and Defense, to 
accomplish the goals of Global Shield.
    The mass production of ammonium nitrate and other precursor 
chemicals largely occurs beyond the borders of countries most afflicted 
by IEDs. A global effort is therefore essential to effectively combat 
their illicit smuggling and diversion. The Government of Afghanistan 
has taken a crucial first step. On September 23, 2009, Afghanistan 
banned the importation of ammonium nitrate fertilizer and issued a 
decree permitting its confiscation either stored in or transported 
through Afghanistan. This ban quickly achieved significant results. In 
November 2009, Afghanistan seized 500,000 pounds of ammonium nitrate in 
Kandahar--one of the largest seizures of its kind in Afghanistan.
    The implementation of Global Shield is underway. In October, police 
and customs representatives from 86 countries participated in a 
preoperational training seminar hosted by the WCO in Brussels, Belgium. 
The seminar focused on the detection of precursor chemicals used to 
manufacture explosives. Assistant Secretary Morton attended and 
provided opening remarks. As of November 1, 2010, Global Shield became 
operational, and intelligence production and information sharing among 
international partners has begun.
    We believe that Global Shield will provide invaluable data for 
trend analysis to increase the global understanding of the risk posed 
by precursor chemicals and their illicit movement. The program will 
identify best practices to combat the illicit diversion and trafficking 
of precursor chemicals used to manufacture explosives, as well as 
monitor and track legitimate shipments of precursor chemicals to assist 
in identifying high-risk routes for future enforcement activity. Global 
Shield will set the foundation for future multilateral initiatives to 
deny terrorists access to explosives components.
           ice's counter-proliferation investigation program
    One of ICE's highest priorities is to prevent terrorist groups and 
others who might wish to inflict harm from illegally obtaining U.S. 
military products and sensitive technology, including weapons of mass 
destruction (WMD) components. ICE agents in the field conduct 
counterproliferation investigations (CPI) focused on the illegal 
procurement and export of specific commodities and services, including 
explosives precursors. CPI priority programs address trafficking in WMD 
components and materials, sensitive dual-use commodities, and 
technologies sought by terrorist groups and others who might wish to 
inflict harm. Other programs address illegal exports of military 
equipment and spare parts to embargoed countries, significant financial 
and business transactions with proscribed countries and groups, export 
enforcement training for foreign law enforcement agencies, and outreach 
with domestic private industry.
    ICE's export enforcement program uses a three-pronged approach: 
detecting illegal exports, investigating potential violations, and 
obtaining international cooperation to investigate leads abroad. The 
guiding principle behind ICE CPI investigations is the detection and 
disruption of illegal exports before they cause damage to the national 
security interests of the United States. ICE relies on specially 
trained CBP officers stationed at ports of entry to inspect suspect 
export shipments. Following detection of a violation, ICE agents 
deployed throughout the country initiate and pursue investigations to 
identify, arrest, and seek prosecution of offenders of the Arms Export 
Control Act, International Emergency Economics Powers Act and other 
related statutes.
    The international nature of counterproliferation networks and 
schemes requires a global investigative response. Our attache offices 
located overseas work to enlist the support of their host governments 
to initiate new investigative leads and develop information in support 
of ongoing domestic investigations. The collaboration between ICE and 
foreign governments in the area of CPI is the foundation for Project 
Global Shield.
    In fiscal year 2010, ICE agents initiated a total of 1,149 criminal 
investigations into possible export violations and made 248 arrests for 
export-related criminal violations, more than any other U.S. federal 
law enforcement agency (reported by the U.S. Department of Justice). In 
fiscal year 2010, ICE agents conducted thousands of seizures of arms, 
military weaponry, and other sensitive commodities related to illegal 
export schemes, valued at over $87.8 million. These efforts 
significantly contributed to preventing sensitive U.S. technologies and 
weapons from reaching the hands of terrorists, hostile countries and 
violent criminal organizations.
                      project shield america (psa)
    One of the most effective tools ICE agents use is our industry 
outreach program, Project Shield America (PSA). Through this program, 
ICE agents conduct outreach to manufacturers and exporters of strategic 
commodities to educate them on U.S. export control laws, discuss export 
licensing issues and requirements, identify ``red flag'' indicators 
used in illegal procurement, and identify the government agencies 
responsible for the licensing of export-controlled commodities and 
technology. Since 2002, ICE agents have delivered approximately 19,000 
outreach presentations to private industry and other entities as part 
of the PSA program.
             export enforcement coordination center (eecc)
    A key part of the President's Export Control Reform initiative is 
to improve our law enforcement capabilities to investigate violations 
of U.S. export control laws. On November 9, 2010, President Obama 
signed an Executive order creating the Export Enforcement Coordination 
Center (EECC)--a multiagency center that will be housed within ICE and 
will serve as the primary government forum for the exchange of 
information and intelligence related to export enforcement. The 
creation of the EECC is a key component of the administration's three-
phase reform plan for export control enforcement, with the ultimate 
goal of creating a single primary enforcement coordination agency. Such 
an agency would be more efficient, and would limit duplicative or 
conflicting enforcement activity.
    The EECC will be staffed with full-time personnel from ICE, as well 
as individuals detailed from among the following departments and 
agencies: State, Treasury, Defense, Justice, Commerce, Energy, the 
Office of the Director of National Intelligence and other executive 
branch departments, agencies, or offices as designated by the 
President. Specifically, the functions of the EECC will include:

  <bullet> Coordinating the deconfliction of criminal and 
        administrative enforcement operations and coordination of 
        industry enforcement outreach activity;
  <bullet> Serving as a conduit between federal law enforcement 
        agencies and the U.S. Intelligence Community;
  <bullet> Acting as the primary point of contact between enforcement 
        agencies and export licensing agencies for enforcement and 
        licensing matters;
  <bullet> Resolving interagency conflicts not settled in the field; 
        and
  <bullet> Establishing governmentwide statistical tracking 
        capabilities for U.S. export enforcement activities.

    The EECC will replace ICE's National Export Enforcement 
Coordination Network (NEECN), which has led coordination among DHS 
components to address challenges inherent with dismantling 
transnational procurement networks. Unlike the NEECN, in which agency 
participation has been on a voluntary basis, the new EECC will require 
participation by law enforcement and the intelligence community 
agencies. Staffing will be dedicated on a mandatory basis, but at 
various levels of participation consistent with the mission of each 
agency's role in export enforcement.
                              cpi centers
    Faced with increasingly sophisticated global procurement networks, 
ICE has established and implemented the concept of operation for ``CPI 
Centers'' throughout the United States to more strategically utilize 
CPI resources in the field. The new CPI Center concept will allow for 
dedicated and experienced agents to be strategically placed in high-
risk domestic areas to improve ICE's ability to combat illegal exports 
and illicit procurement networks that pose a threat to the United 
States.
    All CPI Centers will be staffed with seasoned criminal 
investigators with years of CPI experience, will maintain an ICE 
certified undercover operation unit specifically focused on 
counterproliferation investigations, and will be required to house a 
sensitive compartmented information facility to ensure the capability 
to receive and share classified information. The first CPI Center has 
been established at the ICE Special Agent in Charge office in 
Washington, DC. ICE is in the process of identifying and acquiring 
funding for additional CPI Centers.
                              case example
    In January 2007, ICE received information regarding the illegal 
export of U.S. technology to entities representing Iran, a violation of 
the U.S. trade embargo. A joint ICE, Defense Criminal Investigative 
Service, and Department of Commerce Office of Export Enforcement 
investigation conducted from January 2007 to March 2008 uncovered a 
vast network of companies and entities based in Iran, the United Arab 
Emirates, Malaysia, Canada, and Germany that were aggressively 
procuring sensitive U.S. technology and U.S. military commodities. 
Further investigation revealed that some of this technology was found 
in IEDs deployed against coalition forces in Iraq and Afghanistan.
    The subjects identified during the course of the investigation 
purchased, and then illegally exported to buyers in Iran, numerous 
``dual use'' commodities (goods and technologies that have a commercial 
application, but also could be used to further military or nuclear 
potential, and could be detrimental to the foreign policy or national 
security of the United States). The investigation revealed that as many 
as eight individuals and eight corporations caused the export of 120 
field-programmable gate arrays, more than 5,000 integrated circuits of 
varying types, approximately 345 Global Positioning Systems, 12,000 
Microchip brand microcontrollers, and a field communicator. All of 
these items have potential military applications, including components 
in IEDs. As a result of the investigation, 35 individuals and entities 
involved in procurement and movement of sensitive military and dual use 
goods to Iran were arrested, indicted or convicted.
                               conclusion
    ICE agents are working tirelessly to ensure that IED components and 
precursors do not reach the hands of terrorists and others who might 
wish to inflict harm, and to prosecute those that subvert the rule of 
law and threaten our national security. We look forward to continuing 
to work with this subcommittee on this critical national security 
issue. Thank you once again for the opportunity to appear before you 
today. I would be pleased to answer any questions that you may have at 
this time.

    Senator Casey. Thank you very much.
    Deputy Assistant Secretary Sedney, thank you.

   STATEMENT OF DAVID SEDNEY, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR AFGHANISTAN, PAKISTAN AND CENTRAL ASIA, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Sedney. Mr. Chairman, it's a pleasure to testify before 
you again. General Shields and I have submitted to the 
committee a joint statement that we ask that you enter into the 
record and each of us have a few short remarks.
    Senator Casey. It'll be entered in the record. Thank you.
    Mr. Sedney. Thank you, sir.
    Thank you again for inviting us to speak before you along 
with our counterparts from the State Department, Department of 
Homeland Security, and JIEDDO.
    The ongoing threat that IEDs pose to the United States, to 
NATO, to Afghanistan, to Pakistan, and to our partner nations 
is of great concern. Secretary Gates has made this, combating 
the IED threat, a paramount--has made it clear that that is of 
paramount importance to the Department of Defense.
    As Brigadier General Shields will highlight, defeating IED 
networks is a tough and complex fight. Successfully disrupting 
these networks requires close cooperation both here in 
Washington in the interagency, with our allies and partners 
overseas, and particularly with Afghanistan and Pakistan. As my 
colleagues have already described some of those efforts, I want 
to focus on one other area.
    As part of the President's Afghanistan-Pakistan strategy, 
we are working to build a long-term strategic partnership with 
the government and people of Pakistan. This partnership is 
based on building mutual trust, identifying mutual interests, 
and building a partnership that is designed to accomplish the 
President's core goal of disrupting, dismantling, and 
destroying al-Qaeda and its affiliates.
    The importance of eliminating the IED threat within the 
region is clear to both United States and Pakistan. It's 
important to remember, as you pointed out, Mr. Chairman, that 
Pakistan and its civilians and military are tragic victims of 
IED attacks, with more than 10,000 civilians and more than 
2,000 military personnel either killed or wounded by IEDs since 
January 2008, a trend that has worsened as Pakistan has 
expanded its efforts against the violent extremists that are on 
its soil.
    Both Pakistani civilian and military leadership realize 
that IED networks are the most lethal security threat within 
their own country, and that's been proven again within the past 
week. This realization has led to increased cooperation from 
Pakistan, particularly with the Pakistani military, on counter-
IED efforts. A number of--we have made progress on a number of 
fronts, which I would be happy to brief you on more fully in a 
classified setting.
    As partnership and counter-IED efforts have improved, our 
senior defense leaders will continue to engage with and work 
with Pakistan on precursor supply chains. Our bilateral 
engagements on ammonium nitrate and other precursor topics will 
be key to these discussions. I have made this a priority in my 
discussions with Pakistani colleagues and will continue to do 
so.
    There are many areas that need to be improved, as you 
highlighted, Mr. Chairman. Among those are intelligence-sharing 
as well as the issues of Pakistani regulatory capacity and law 
enforcement capacity that you highlighted. Our Office of 
Defense Representative in Pakistan has and will continue to 
make this effort against ammonium nitrate and other precursors 
a priority of their interactions with the Pakistani military.
    IEDs have been a major cause and continue to be a major 
cause of United States military deaths in Iraq and Afghanistan 
and play a significant role in shaping today's combat 
environment. The Department of Defense is committed and is 
focused on addressing this critical issue, which is essential 
to the success of the United States strategy in Afghanistan and 
Pakistan.
    Thank you again for calling this important hearing and I 
look forward to your questions.
    [The joint prepared statement of Mr. Sedney and Brigadier 
General Shields follows:]

Joint Prepared Statement of David S. Sedney, Deputy Assistant Secretary 
 of Defense for Afghanistan, Pakistan, and Central Asia and BG Michael 
    H. Shields, Deputy Director, Operations and Requirements, Joint 
            Improvised Explosive Device Defeat Organization

    Chairman Casey, distinguished members of the committee, thank you 
for inviting us to appear before you today on behalf of the men and 
women of the Joint Improvised Explosive Device Defeat Organization 
(JIEDDO) and the Department of Defense (DOD).
    As part of the President's Afghanistan-Pakistan strategy, we are in 
the midst of building a strategic partnership with Pakistan based on 
mutual interest, mutual trust, and mutual respect. President Obama has 
said that ``America will remain a strong supporter of Pakistan's 
security and prosperity long after the guns have fallen silent, so that 
the great potential of its people can be unleashed.'' Our partnership 
with Pakistan is designed, in part, to accomplish our core regional 
goal of disrupting, dismantling, and destroying al-Qaeda and its 
extremist affiliates. The U.S.-Pakistan Strategic Dialogue, led by 
Secretary of State Clinton and her Pakistani counterpart, Foreign 
Minister Quereshi, has helped widen the scope of our partnership to 
include all spheres of bilateral cooperation. The Strategic Dialogue 
has helped elevate bilateral dialogue to advance this partnership, and 
has also provided a forum to discuss the tough issues that we must face 
as partners, from the transnational threat posed by extremist safe 
havens in Pakistan to the threat posed by improvised explosive devices 
(IEDs). Separate engagements at all levels of the Department of 
Defense--from Secretary Gates and Chairman Mullen, to the Under 
Secretary of Defense for Policy and at working levels throughout the 
Department--have begun to advance the dialogue with our Pakistani 
partners in combating this threat. Because of the sensitivity of much 
of our cooperation, as we are sure you understand, there are some 
aspects of our discussions with Pakistan on which DOD would need to 
brief members in a classified setting. We would welcome that 
opportunity.
    The importance of countering the threat posed by IEDs cannot be 
overstated. IEDs have been a major cause of U.S. military deaths in 
both Iraq and Afghanistan, and play a significant role in shaping 
today's combat environment. DOD has prioritized countering the IED 
threat, and it is a focus area for Secretary Gates. From the 
establishment of JIEDDO as the nexus of DOD counter-IED efforts, to the 
urgent prioritization of the development and acquisition of Mine-
Resistant Ambush Protected (MRAP) vehicles and the establishment of a 
standing Senior Initiatives Group chaired by the Under Secretary of 
Defense for Acquisition, Technology, and Logistics and the Joint Staff 
Director of Operations, DOD has brought significant resources to bear 
in trying to counter the IED threat.
    DOD responds to the IED problem from the military perspective, but 
we have increasingly recognized that interagency cooperation and 
cooperation with foreign governments are essential in addressing this 
complex issue. Active coordination with U.S. Government diplomatic, 
economic, intelligence, and military resources, as well as cooperation 
from foreign governments, is the key to a successful effort to defeat 
IED networks. We rely heavily on the Department of State to assist in 
this area.
    IEDs continue to represent the most lethal threat to U.S. and 
coalition forces in Afghanistan and to the success of the U.S. strategy 
in Afghanistan and Pakistan. Homemade explosives (HME) and other bulk 
explosives are the enabling factors in 9 of every 10 IEDs in 
Afghanistan. IEDs have resulted in the deaths of 1,046 coalition 
soldiers since January 2008, causing 2 of every 3 coalition fatalities 
in Afghanistan. The challenge of interdicting this HME threat is 
considerable and must be addressed using a comprehensive approach, 
applying a range of assets in close partnership with our allies and 
other countries in the region. Combating this threat is crucial to the 
success of the U.S. strategy. The best way to obtain results is through 
engagement with the international community, including the Government 
of Pakistan, collaboration within the U.S. Government and with 
multinational partners, and through the use of technology, training 
tools, and methods, along with a substantial and enforceable regulatory 
or legal regime.
    JIEDDO assesses that the vast majority of significant precursors 
for HME in Afghanistan--ammonium nitrate fertilizers and potassium 
chlorate industrial chemicals--originate in, or transit through, 
Pakistan. Additionally, it is assessed that a significant portion of 
the weaponization process for HME precursors occurs in areas outside 
Afghanistan. Complicating this picture is the dual-use nature of many 
of these precursors; they are the product of legitimate industries that 
produce items such as agricultural fertilizer and matches. Although 
there is a limited manufacturing base in both fields, there is a larger 
chemical broker and transportation industry that, often unwittingly, 
makes up the IED supply chain. An additional challenge is the absence 
or infancy of Pakistani regulatory and law enforcement regimes to 
control the sale, transportation, or weaponization of these materials. 
Should Pakistan institute an effective regulatory regime, it still 
would require a much more robust enforcement capability than the one 
that is currently in place. Once precursor materials have entered the 
retail chain, efforts to restrict the movement of ammonium nitrate-
based fertilizer and other HME precursors into Afghanistan are hindered 
by the high profit margins these products can bring to those who deal 
in them. The economic incentive to smuggle becomes too high. It is 
important to remember that Pakistan and its civilians and military are 
tragic victims of IED attacks, with over 10,000 civilians and over 
2,000 military personnel either killed or wounded by IEDs since January 
2008. In our efforts with Pakistani military counterparts, they have 
recognized the common threat of IEDs and have cooperated in ways that 
have exceeded the expectations of some.
    Our efforts to counter IEDs require what JIEDDO's Director, 
Lieutenant General Michael Oates, calls a ``combined arms approach.'' 
This includes applying multiple material and nonmaterial solutions 
along the long line of IED production and using them to detect and 
disrupt IEDs in place or while being emplaced; IEDs constructed, 
acquired, or transported; and the diversion of precursors for IED 
manufacture both before and after weaponization.
    Just as the IED supply chain is not limited by national borders, 
the counter-IED response cannot be limited to the interdiction of HME 
precursor materials in Afghanistan. Success against the supply of HME 
precursor materials is essential to reduce the effect of IEDs on our 
forces, as well as on government personnel and civilians in Afghanistan 
and Pakistan. To achieve this success, JIEDDO will continue to employ 
its three core functions and to integrate these functions: (1) rapid 
response, (2) training, (3) and operations and intelligence fusion, to 
achieve an effect greater than the sum of each individual effort 
separately. Broader DOD efforts to focus intelligence, operational, and 
acquisition efforts will also be key over the long term.
    Although there is still much to be done, we will need to focus on 
interrupting the IED supply chain, including through border 
interdiction efforts. As much of the licit and illicit material 
transport in Afghanistan is through smuggling and the black market, the 
more success that we have at border interdictions, the greater the 
reward for smugglers as the black market price goes up. Our success 
means that we may soon reach a point of diminishing returns.
    Although there is much to do, Pakistan's recognition of the 
challenge has driven some progress. Through the Office of Defense 
Representative-Pakistan, and with coalition partners, DOD continues to 
work on collaborative efforts with Pakistan to enhance our collective 
ability to defeat IED networks. If requested, DOD can provide 
additional information in classified settings on our cooperative 
efforts. Although DOD's efforts, along with other U.S. departments and 
agencies, to work with the Government and Security Forces of Pakistan 
on the IED-related challenges have only just begun, Pakistan recognizes 
the threat IEDs pose to their own security, but faces significant 
capability and capacity challenges. As with Coalition Forces in 
Afghanistan, IEDs are the single-highest casualty-producing threat 
against Pakistan military and security elements. The Pakistanis do 
appear to recognize the importance of a multilateral, comprehensive 
governmental solution to tackling the IED problem in order to protect 
Afghan and Pakistani civilians, as well as the security units trying to 
protect them.
    There are additional efforts underway to develop needed 
capabilities and partnerships with the Government of Pakistan. The 
Department of Defense stands ready to bring its significant experience 
and expertise to bear to optimize the responses to this problem, which 
is essential to the success of the U.S. strategy in Afghanistan and 
Pakistan.

    Senator Casey. Thank you very much, Mr. Sedney.
    General.

    STATEMENT OF BG MICHAEL H. SHIELDS, DEPUTY DIRECTOR FOR 
OPERATIONS AND REQUIREMENTS, JOINT IMPROVISED EXPLOSIVE DEVICE 
                  DEFEAT ORGANIZATION (JIEDDO)

    General Shields. Chairman Casey, thank you for the 
invitation to appear before you today on behalf of the men and 
women of the Joint IED Defeat Organization. On behalf of 
Lieutenant General Oates, I'm honored to be here representing 
JIEDDO.
    To call our mission a challenging one would be a 
considerable understatement. Improvised explosive devices 
continue to represent the most lethal threat to United States, 
coalition, and Afghan forces, as well as Pakistan security 
forces and civilians. It's a weapon of tactical, operational, 
and strategic influence. Homemade explosives and other bulk 
explosives constitute approximately 80 to 90 percent of every 
IED in Afghanistan. The topic of this hearing couldn't be more 
relevant to the fight we now face.
    We face an adaptive and agile enemy, determined to inflict 
the most casualties, often in ways that expose them to the 
least amount of risk, but always in a manner that's difficult 
to predict due to range of options available to insurgents. The 
enemy shifts its tactics, techniques, and procedures to adjust 
to our behavior on the battlefield. These options include how 
the device is detonated, ranging from remote-controlled and 
victim-operated to command wire IEDs.
    JIEDDO assists U.S. Central Command in multiple ways, to 
include providing analysts and analytical tools for the 
warfighter. This near real-time reachback analytical support 
gives tactical commanders multiple layers of situational 
awareness. Additionally, JIEDDO's rapid acquisition of material 
and nonmaterial solutions supports efforts to attack networks, 
defeat IEDs, and train forces.
    JIEDDO also supports information-sharing through our Joint 
Knowledge Information Fusion Exchange, referred to as JKnIFE, 
and it's also accessible to the coalition, as well as IED and 
HME recognition guides, handbooks, and test kits.
    I've brought a couple of examples of some of our handbook 
products that we provide both to U.S. forces and coalition 
forces. We've got enough for the subcommittee. I've also 
brought an example of calcium ammonium nitrate in its 
fertilizer form, ammonium nitrate in its processed form, and 
the commercial ammonium nitrate. Sir, if you'd like we can move 
this forward, if you'd like to see this, and we can provide 
copies of this at the conclusion as well.
    Senator Casey. Sure. Thank you very much.
    General Shields. The IED assembly line is not limited by 
national borders, nor can the response be limited to the 
interdiction of HME precursor materials in Afghanistan. The HME 
threat is considerable and must be addressed using a 
comprehensive approach by applying a range of assets in close 
coordination with our allies and partners. The application of 
economic, political, and military solutions to the HME-based 
IED problem is the right approach. Success against the supply 
of HME precursor materials wherever they exist is essential to 
reducing the effect of IEDs on our troops and on those 
government personnel and civilians who are critical to the 
success foreign our counterinsurgency strategy.
    Pakistan acknowledges the threat IEDs pose to their own 
security. It suffered over 10,000 casualties since 2008 and, as 
with coalition forces in Afghanistan, IEDs are the single 
highest casualty-producing threat against Pakistani military 
and security organizations, with over 2,000 military either 
killed or wounded. The Pakistanis recognize the importance of 
the multilateral comprehensive governmental solution to 
tackling the IED problem in order to protect Afghan and 
Pakistani civilians, as well as the security units trying to 
protect them.
    There are additional efforts under way, as mentioned 
previously, to develop needed capabilities and partnerships 
with the Government of Pakistan. The JIEDDO Deputy Director for 
Operations Integration will travel to Pakistan in support of 
CENTCOM over Thanksgiving, to participate in the Pakistan-
hosted counter-IED seminar with senior personnel of the 
Pakistani military, Ministry of Interior, as well as our Office 
of Defense Representative, Pakistan. The goal is to enhance 
cooperation between the United States and Pakistan on counter-
IED efforts and assist Pakistan in developing a comprehensive 
counter-IED strategy.
    JIEDDO stands ready to respond to counter-IED requirements 
generated from the combatant commanders and will continue to 
support efforts with other U.S. agencies to work with the 
government and security forces of Pakistan on this challenge.
    Again, thank you for the opportunity to stand before the 
subcommittee and I'm prepared to answer your questions.
    Senator Casey. Thank you very much.
    I've grateful for the testimony of all of our witnesses, 
and also wanted to welcome Senator Coons from Delaware, who for 
me becomes the third Senator from Delaware to serve on the 
Foreign Relations Committee in the short time that I've been in 
the Senate. When I got here Senator Biden was the chairman of 
the committee, and then Senator Kaufman used to sit right over 
there, and we welcome Senator Coons, unless you have anything 
you wanted to say before we start questions.

            STATEMENT OF HON. CHRISTOPHER A. COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Thank you, Senator. I appreciate the welcome 
and the opportunity to join you in this important hearing. I 
apologize for my late arrival. I had a previously scheduled 
meeting. This is my first week.
    I think this is a very important topic, and in reading the 
briefing materials beforehand was reminded of just the 
challenges that both our troops in the field face and that 
civilians face in theater. A young man who grew up next door to 
me in Delaware was killed by an IED December 11, 2005, and I 
never forget every day that there are American service men and 
women who are suffering either debilitating injuries or losing 
their lives due to these weapons.
    So I just wanted to command you and thank you for 
organizing and pursuing this hearing and the conversation, the 
multiagency and multilateral conversation, on stopping the IED 
supply chain.
    So thank you for the chance to speak, Senator.
    Senator Casey. Thank you, Senator.
    We'll go to a round of questions. We have some flexibility 
today, so we don't have to be too restrictive on time. But I'll 
try to keep within a reasonable amount of time, maybe 7 
minutes? I'll try to keep within the committee rules and 
traditions.
    But Ms. Goodman, I wanted to start with you, with regard to 
the State Department. You just returned from a visit to 
Pakistan. You spoke in your testimony about the Counter-IED 
Task Force. It's critically important that the American people 
know that's happening. I wanted to get your sense of how that's 
going so far in Pakistan, who will actively participate, and 
what's your sense of how far along that task force is in 
Pakistan.
    Ms. Goodman. Thank you for your question, Senator. Our 
Embassy in Islamabad, as well as the British High Commission, 
have been working cooperatively with the Pakistani Government 
for several months now, trying to talk to them about regulatory 
best practices and trying to help them develop some overview of 
how a domestic regulation might look. The Pakistanis have been 
engaged, but, as you're well aware, we have not yet seen them 
develop a comprehensive regulation that they've taken before 
their national assembly. We're continuing to work with them on 
that.
    During our recent United States-Pakistan strategic 
dialogue, we were able to have the issue of the ammonium 
nitrate on our agenda, which was a step forward for Pakistan in 
their public acknowledgment of addressing this issue with their 
Pakistani interlocutors and the Pakistani public. So we took 
that as a very positive sign that they are going to be more 
forthcoming and more willing to have these negotiations on a 
regular basis.
    The national counter-IED forum that they're going to have 
on the 25th of November will not be publicly open as far as we 
understand it, but it will have broad participation from many 
of the ministries within the Pakistani Government, notably led 
by the Ministry of Interior, but it will also have 
participation from provincial governments as well as from 
several other ministries that have some level of involvement in 
this, including the customs authorities. So for the Pakistanis 
to convene all the stakeholders is really a significant step 
forward. It will also have participation from the Pakistani 
military, so this is a positive step in having the interagency 
cooperation there.
    Senator Casey. The one concern that we all have is that 
there must be a sense of urgency, and it has to be a sense of 
urgency within and throughout several countries, including our 
own. What's your sense from having just returned from Pakistan? 
Is there an urgency that is at the highest levels, or do you 
still think it's not yet at that point?
    Ms. Goodman. Senator, I can't promise you that this is the 
top priority in Pakistan. But I can tell you that Ambassador 
Holbrooke did raise this with the top levels of the Pakistani 
Government. We've had discussions with President Zidari, Prime 
Minister Gilani, the military leadership, and numerous 
ministers involved in the process in the Pakistani Government.
    So it is something that they are keenly aware of as a 
strategic and important interest that we are following closely, 
and they have promised to follow through and to move in their 
system to develop a more comprehensive approach.
    Senator Casey. In terms of the legislative mechanics, we 
have our own challenges here with the movement of our 
legislation, but what's your sense of the framework or the 
timeline for that? Do you have any sense of that yet, or is it 
too----
    Ms. Goodman. I think it's a bit too early to have any 
predictions on that, unfortunately, Senator.
    Senator Casey. Well, I hope we can continue to both monitor 
and push hard on that as best we can. I know that the State 
Department has that concern.
    I know that the strategic dialogue here in the United 
States, I think even beyond this issue, more broadly, is 
critically important to continue that dialogue. The last one 
that took place here in the United States, was a few weeks ago 
now--Secretary Clinton raised this issue with the Pakistani 
leaders at that dialogue.
    Ms. Goodman. It was on the agenda. We have 13 working 
groups under the strategic dialogue and it was on the agenda 
for more detailed and comprehensive discussion in our 
counterterrorism and security working group. So that's where it 
was discussed, with the expert leaders and the ministers who 
participated in that session.
    Senator Casey. I only have a few more minutes in this 
round. But in terms of the Department of Defense, Mr. Sedney, I 
wanted to ask you about what's your sense--to the extent that 
you can comment, because I know some of this you can't get into 
certain details--in a broad way as to the degree of intensity 
or the priority that the Pakistani military places on this?
    I ask you that with some knowledge of the strength of their 
military and the strong leadership they have. The two visits 
I've had in the last couple years to Pakistan I have on both 
occasions been able to meet with General Qiyani, who's a very 
capable military man. But I don't yet have a sense as to the--
I'm sure the awareness is there--whether or not this is a top 
priority for his military or at some level close to his level 
as the leader of their military.
    Mr. Sedney. Mr. Senator--Mr. Chairman, rather, we found 
that--and I think this is similar to our own experience with 
IEDs over the course of our encountering them--that the 
Pakistani military is to an increasingly and very serious 
degree understanding the threat that they pose to their own 
military and their own civilian population. We have raised this 
issue at the highest levels, including with General Qiyani. As 
I mentioned, I've raised it in my discussions. My boss, Under 
Secretary Michelle Flournoy, has raised it in her discussions 
with her Pakistani counterparts, and we have done that up and 
down, up and down the chain.
    What we found over the last year particularly is a very 
responsive Pakistani military. There are a number of areas of 
the Pakistani military where our cooperation sometimes 
encounters roadblocks. This has not been one of them. The calls 
get returned right away. The sense of urgency is increasing. Is 
it as high as it might be? I think I'll leave that to the 
Pakistanis to decide, but I can certainly say that it is 
increasing very rapidly. The level of cooperation, the spirit 
of cooperation, as the Pakistanis have been exposed to some of 
the work that JIEDDO and the U.S. military has been doing into 
counter-IEDs, they've found that work bringing them the 
possibility of capabilities that they know they need.
    I want to thank General Shields and his team for sending 
people to the seminar next week during Thanksgiving to 
participate in that. I expect that the interest of the 
Pakistani military will only continue to grow, so it's on a 
positive trend, getting close to where you're looking for, if 
not there yet.
    Senator Casey. Thank you very much.
    Senator Coons.
    Senator Coons. Thank you, Senator Casey, and thank you to 
the panel for those informative answers.
    If I might, to Ms. Goodman. What else can we be doing to 
leverage support with regional allies to further strengthen the 
regime that's evolving in Pakistan and to further strengthen 
the domestic ban on ammonium nitrate importation in 
Afghanistan? What else could we be doing with regional allies 
or with partners in the field?
    Ms. Goodman. Thank you, Senator. It's an excellent 
question. The ammonium nitrate is certainly flowing from all of 
Afghanistan's neighbors. The State Department has done some 
demarches to the Central Asian states to try and assess what 
their current regulatory regime is. Unfortunately, we did not 
get a very comprehensive response back, simply because this is 
the first time we've ever raised this issue with some of these 
countries, so they had to do some homework themselves to 
determine what their laws were on the books.
    So we continue to work with the Central Asian states as 
well to help them in trying to find a regulatory solution 
there. The real winner in terms of making a difference is going 
to be having more border coordination and more training of 
their border and customs officials, so that they know how to 
detect these types of materials going into Afghanistan. That's 
what we're seeking to do, is to enhance that engagement.
    Senator Coons. Is my perception that these borders, 
broadly, are highly porous and poorly policed correct?
    Ms. Goodman. That's 100 percent correct. They're incredibly 
porous.
    Senator Coons. And to Mr. Woods, if I might: I was very 
interested to hear about Global Shield and the partnership 
through the World Customs Organization. Is there some broader 
multilateral partnership possible here with our more advanced 
industrialized allies in precursor exports and materials that 
are dual use? Does this set the stage for a broader 
conversation about things that
are precursors for other production, whether narcotics, AN, in
other contexts? What else could we be doing through 
multilateral organizations that would strengthen the regional 
efforts around Afghanistan?
    Mr. Woods. That is correct, Senator. Through the World 
Customs Organization, we did hold this training seminar last 
month, where 86 countries did participate. It wasn't totally 
focused on Southeast Asia. In her opening statement, Ms. 
Goodman stated how as far away as Sweden was shipping and 
transshipping ammonium nitrate into Pakistan. So this is a 
worldwide effort that we are looking at and looking at taking 
this into the next step, and not just with the 14 precursor 
chemicals, but down the road looking at other components and 
other strategies to stop--for counterproliferation efforts.
    Senator Coons. If I might, just a closing question to the 
whole panel. How engaged and how helpful has the Karzai 
administration been on the ground in Afghanistan in embracing, 
adopting, and then actually enforcing the new regulatory regime 
we're trying to press them toward, if I might?
    Ms. Goodman. President Karzai was very helpful in issuing a 
Presidential decree in January of this year to completely ban 
the import of the fertilizer. As with everything that we do in 
Afghanistan, it's a question of the capacity to implement. 
We're continually working with the ministries involved and with 
the border officials there to train them and to equip them in 
how better to detect the ammonium nitrate and other precursors 
as well.
    But it's a slow process. I mean, it's going to have to be 
an ongoing effort, with additional funding provided, so that we 
can ensure that they're able to use the best technology and the 
best resources available to ensure that they are living up to 
their full capability in detecting this.
    It's an ongoing effort with them. The cooperation that 
we've received from the Ministry of Interior and from the 
Presidency's Office once we made them aware of this issue was 
quite good; the Department of Agriculture; they've all been 
very cooperative.
    To date, there has not been any regulation issued by the 
Ministry of Interior there to create the permit system that is 
needed for the importation of ammonium nitrate for either 
mining or for road construction. So that is something that our 
Embassy in Kabul is actively engaging on, to ensure that that 
permit system is put in place and we're able to effectively 
monitor it.
    Senator Coons. Thank you.
    Mr. Woods. If I might add, Senator, additionally, this week 
in Brussels there are Afghanistan customs officials and police 
officials that are receiving Global Shield training and 
learning the methodologies that we plan to deploy around the 
globe in this endeavor. They have shown full commitment to 
this, and right after President Karzai's decree there was a 
500,000-pound seizure in Kandahar province that was the initial 
success, and there have been other seizures to the like.
    Senator Coons. Thank you.
    Mr. Sedney.
    Mr. Sedney. Broadly, since the issuance of the decree, 
which made possible the seizure of a lot of the ammonium 
nitrate that was already in Afghanistan, we have had a series 
of quite successful operations, as Deputy Assistant Secretary 
Woods just mentioned one example. So the cooperation of the 
Afghan security forces in going after these existing caches or 
other caches of ammonium nitrates that have been brought in 
since has resulted in a real dent in the amount that's there.
    But, as, Mr. Chairman, you mentioned at the beginning, IEDs 
continue--IEDs and ammonium nitrate continue to be a serious 
problem. I think we've seen some change over the last several 
months in the kinds of IEDs that are being used, but that's a 
discussion that I've have to have at a classified level.
    General Shields. Senator, JIEDDO is an enabler for the 
combatant command. I wouldn't be able to comment on the 
administration and would have to defer to State.
    Senator Coons. Thank you. I appreciate the answer.
    Thank you, Senator.
    Senator Casey. Thank you, Senator Coons.
    I wanted to ask both General Shields and Mr. Woods. It's a 
tough question to answer because you're predicting or making 
judgments about what the implication of some action would be. 
But if you had a full ban in Afghanistan, what's your sense of 
the implications of that?
    Mr. Woods. Well, I think the ban would have to go beyond 
the borders of Afghanistan. The issue here is the smuggling 
into Afghanistan, identifying those transshipment points and 
the actual countries that are being utilized to smuggle into 
Afghanistan the ammonium nitrate and other precursors.
    Senator Casey. And in the absence of any legislative change 
in Pakistan, are there ways right now that the border security, 
border interdiction, could be beefed up on the Afghan side? I'm 
just trying to think of ways that, instead of waiting for 
legislative changes, is there more we could be doing on the 
borders? And I'd ask that to the whole panel.
    Mr. Woods. Well, that's part of our training technique, 
capacity-building within these countries, is to look at the 
trade data and look at diversion techniques that these 
middlemen will utilize. The fact that they would, maybe not 
market it as ammonium nitrate, but market it as something else, 
and train them in the methodologies that we use in interdiction 
here in the United States, to use at their own borders.
    Senator Casey. Going back to Ms. Goodman, I think probably 
a number of people were struck by one of the lines from your 
testimony, looking at page 3, where you say, and I quote, 
``Given the low level of usage for ammonium nitrate fertilizer 
in Pakistan's domestic agricultural use, the customs data 
indicates that import levels far exceed domestic usage and thus 
may have been legally transshipped onward to Afghanistan.''
    That alone I think indicates just numerically or 
quantitatively that this is not a product that is essential for 
farming or other use in Pakistan. When you present that data as 
part of an argument or an assertion to the Pakistani civilian 
leadership, what do they say? What's their response?
    Ms. Goodman. Senators, in the conversations I've had 
regarding this subject, they acknowledge that the calcium 
ammonium nitrate is not the fertilizer of choice in Pakistan. 
With very limited exception, I have found no one there that 
even professes to use this among the farmers that we've talked 
to.
    Urea is the most common available fertilizer there. It is 
certainly the cheapest and it is the most widely available. 
Pakistan also uses a bit of DAP, but it is also a bit more 
limited and more for some crops of export, to make them a bit 
greener, if you will, before they're exported. So the calcium 
ammonium nitrate is not something that is widely used.
    These two plants that I mentioned do produce enough to meet 
the domestic needs of Pakistan. We have every reason to believe 
that the imports coming in are in excess of the domestic usage. 
It's very hard to get specific trade data on this, particularly 
in a place like Pakistan. The most recent data is from the 
United Nations, the Food and Drug Organization, and so all the 
trade data does support that by no means is CAN a fertilizer of 
choice in Pakistan.
    Senator Casey. I was going to ask, General Shields, I don't 
know if you're able to walk through all of this, but just from 
the point of view of transport and movement, can you describe 
for us how--and I know in my opening I talked about that L.A. 
Times story about the 80 tons transported in 1 day, a quantity 
that can produce 2,500 IEDs.
    To the extent that you can say, tell us how that happens? 
How does that sizable--that kind of tonnage, how does that get 
moved from one plant in Pakistan into Afghanistan on a single 
day? Even if it were half, if it were 40 tons, just describe 
for us, if you can, the movement of that, how it happens? 
There's obviously--I'll say it; you don't have to--there's 
definitively corruption and payoffs and all kinds of other. I 
don't think there's any question about that. But tell us as 
much as you can in this setting about how that happens?
    General Shields. Sir, it was mentioned earlier, the 
challenge with the porous borders. Of course, there's two main 
POEs as well. There's a lot of effort going on to improve the 
detect piece.
    What I was going to mention on a previous question is the 
training aspect for attacking the network in Afghanistan. It's 
a capability that JIEDDO is capable of providing. We provide 
analysts from regional command all the way down to battalion 
and we provide analytical counter-IED support all the way down 
to the battalion in support of the current intel uplift that's 
ongoing.
    But the ability to understand what we refer to as the 
taxonomy of the network and the logistics piece and how they 
move, that's a challenge. The piece that was brought up earlier 
about the porous border, border security standards, how they're 
disguising shipments, that is also challenging.
    So I can't address the piece how it gets from plant to 
border, but I can tell you that JIEDDO is focusing in on the 
network piece and the different functional nodes and components 
of the network and how they move within the country of 
Afghanistan. Sir, the rest of the answer I'd request to submit 
in a more classified forum.
    Senator Casey. OK. Thank you.
    I don't know if Senator Coons has another round, but I 
wanted to pose one more in the couple seconds I have here. Can 
you describe the degree to which Pakistani and Afghan senior 
officials have interacted or cooperated? Do you have any sense 
of that? Anyone, but I think Ms. Goodman maybe.
    Ms. Goodman. As Mr. Woods has said, both countries 
participated in the Global Shield training that we did in 
Brussels. So there was some interaction there, and they both 
received the same training. Then we know that there has been 
some followup training with both governments as well 
separately.
    At the next session of our trilateral strategic dialogue 
that we have--Pakistan, Afghanistan, the United States--we've 
already had some internal discussions saying that this would be 
an issue which we hope to put on the agenda so that we can have 
a more tripartite discussion on it. We don't yet have a date 
set for that, that trilateral meeting, but we're anticipating 
that it will happen early in the new year. So we will use that 
opportunity to bring them together in a more cooperative 
setting and have those discussions.
    Senator Casey. Senator Coons.
    Senator Coons. Thank you, Senator. I'll just ask, if I 
might, one or two more questions.
    What do the Pakistanis offer as sort of the major 
impediments or the major reasons they can't move more swiftly, 
given the evidence you've suggested, to bar the export into 
Afghanistan? We've talked about porous border. We've talked 
about a lack of clarity about the ways that they're moving it. 
What's their major reason?
    If I hear you correctly, it's really not broadly used 
domestically. There would be, in response to Senator Casey's 
question, no dramatic impact on their domestic construction or 
farming industries. What's their major reason for not being 
more active, more aggressive, more cooperative on this issue 
with us?
    Ms. Goodman.
    Ms. Goodman. Senator, I think they are being cooperative in 
working on this issue. I would note that, even in the United 
States, we've not yet developed a pure regulatory force to 
track this and to monitor the shipments. So it is quite 
difficult. They are working to try and develop some mechanisms 
to trace the imports with the freight forwarders and the 
movements internal in the country, but there really isn't the 
sophisticated use of technology in a lot of this trading. It's 
a very undocumented economy. A lot of this is just simple 
barter in the markets, with cash changing hands. So the 
paperwork that exists here certainly would not be available 
there. It's just a very difficult process to try to put the 
paperwork in place and the monitoring in place.
    But it is something that they're working on.
    Senator Coons. I may have missed this in the previous 
testimony, but urea and DAP do not have the same lethal 
potential when mixed with fuel oil, or are they equally 
effective? My sense was that they are effective fertilizers, 
not effective components to explosives.
    Ms. Goodman. That's correct, sir. It's the nitrogen that 
causes the problem. So it's the calcium ammonium nitrate that 
is by far the most lethal in these attacks, and the urea is a 
more natural form that's easily used for the fertilizer, but 
doesn't have--it can be used, but it's much more difficult to 
do so, is my understanding.
    Senator Coons. To Mr. Woods: Are there efforts globally to 
put tracers or tagging molecules or identifying elements within 
these when produced in more reliable or advanced ally nations, 
like Sweden for example, that would help us trace the flow of 
ammonium nitrate through the global security?
    Mr. Woods. This is part of our project, is to have 
countries be educated to what their ammonium nitrate exports 
are doing and who they are selling them to, at the same time 
tracing that trade data and making sure that it's complete and 
correct. We're in the process of doing an analytical product to 
look at the trade data of who is actually shipping, making 
shipments out, and who is bringing shipments in of this 
ammonium nitrate.
    Senator Coons. Thank you.
    Ms. Goodman.
    Ms. Goodman. I'll just add, Senator, that the State 
Department does have a subgroup that we're working on to work 
with the private sector, to work with industry and the 
fertilizer institutes, to do just as you're saying, to find 
ways to make the product itself less explosive and also to find 
ways that we might be able to use some taggants and some 
traceants to have a more effective marketing trace here and in 
Pakistan.
    Senator Coons. Thank you all very much.
    Senator Casey. Thanks very much.
    We've heard a good bit about the plant at Multan. Before I 
ask the question about the owners of the plant, I wanted to ask 
you a question about that. What, if anything, can you tell us 
about the impact of the floods on that plant or on the flow 
itself? I'm assuming it's--published reports say it's slowed 
down. Do you have any current kind of status report on that?
    Ms. Goodman. The plant owner in Multan is someone that is 
very well known to the U.S. Embassy and, more specifically, to 
the consulate in Lahore. It's a family that has been very 
cooperative with any request that we've made to them. They've 
allowed us to come to numerous site visits. They've really 
extended all courtesies and all efforts to assist us in 
anything that we have engaged with them on. We have no reason 
to anticipate that that will change in the future in any way, 
shape, or form.
    In regards to the floods, this is actually an incredibly 
appropriate question, Senator, because we've seen that one-
fifth of Pakistan was under water. Significant loss of 
agricultural production. We know that in order to meet some 
basic food security needs in Pakistan they will have to do some 
very quick, rapid planting. Currently they're working on what 
they call the rabi season for wheat, just to get it in the 
ground as quickly as possible, to do an early harvest.
    So there will have to be a significant amount of fertilizer 
used in order to basically stave off the food insecurity 
issues. Right now, there are many countries that are working to 
provide some assistance so that Pakistan can get the seeds and 
the fertilizer that they need. Most of the imports of 
fertilizer so far that have been announced by other governments 
are in the form of urea, just because that is the preferred 
fertilizer in the region. But this is something that we're 
going to be monitoring very closely, because it will be 
essential for Pakistan to have the fertilizer in order to do 
the early harvest and replanting that they need to do because 
of the floods.
    Senator Casey. In light of the floods or because of the 
floods, was there any diminution in the productive capacity of 
that plant?
    Ms. Goodman. I think because of it there hasn't been as 
much demand, so we've seen some of----
    Senator Casey. It wasn't that the plant was adversely 
impacted?
    Ms. Goodman. Not in the least, no.
    Senator Casey. I was going to ask you about the owners and 
you spoke, you spoke to that. You're asserting that they have 
been cooperative and they share this concern. Is there anything 
that we have attempted to do or we can do in terms of 
engagement with those owners, short of--prior to any kind of 
legislative or any other kind of change? Is there any way that 
they've helped us to provide the kind of support you'd want, 
whether it's tagging of bags or some other way to track the 
flow of ammonium nitrate right from the plant? Or maybe there's 
not much that the owner can do.
    Ms. Goodman. In my conversations with the owners of the 
plant, they've been receptive to anything that we want to 
suggest, because they are very concerned about this. This 
obviously has an impact on Pakistani citizens as well. So they 
are actually seeking advice and seeking input from us on things 
that we would advise that they can do to either put taggants or 
traceants or things that could help in determining the impact 
of this.
    So we're in constant engagement with them about some 
technologies that could be used. Again, they're very receptive 
and very open to any input that we want to give them.
    Senator Casey. You list the number of initiatives or 
strategies that are in place, some just getting under way. You 
list Project Global Shield, the counter-IED forum, the 
beginnings of that in Pakistan, what JIEDDO is doing, what 
Defense is doing, what State is doing, what Homeland Security 
is doing. And you go down that list. I guess I have a couple of 
questions. One is, how do we measure results of all of those 
efforts? Because for the American people, I think this issue 
becomes just pretty fundamental. They hear day after day people 
being killed, or soldiers being killed, mostly soldiers, but 
civilians as well, so they hear a lot about that. They hear a 
good bit about IEDs and they I think are increasingly hearing 
about the topic of ammonium nitrate.
    But it's difficult for us to be able to say, well, we have 
Project Global Shield in place, they're working on legislation, 
this U.S. agency is doing this, you go down that list. But 
they're probably going to look at someone like me and say, but 
where are the results and how do we measure that? I know in 
some ways it's premature to measure some results, because 
you're just--some of these efforts are just getting under way.
    So it's a tough question, but I want to open it up for the 
whole panel, about how do we measure and when should we 
measure, in terms of the slowing down or substantially 
impacting the flow of ammonium nitrate from Pakistan or other 
places into Afghanistan that threatens our troops? Any thoughts 
on that?
    Mr. Sedney. Mr. Chairman, you're absolutely right that the 
only thing that matters is results. So far we've had the 
beginnings--in Pakistan, we've had the beginnings of results. 
We've had more results in Afghanistan, as Mary Beth Goodman 
laid out. We are pushing this urgently.
    But in terms of measuring what we're doing--and the 
measurement, of course, is the safety of our troops, the safety 
of Afghan military and civilians and Pakistani military and 
civilians--the responsiveness that I described earlier that 
we've been getting from the Pakistan military, and I think Mary 
Beth has been saying on the same side from the Pakistani 
civilian side, is encouraging, but there is a long, long way to 
go.
    Maintaining the focus on this that you're bringing, that 
this hearing brings to the issue, I think is quite important, 
because changing behavior, adding capacity--and Pakistan, as 
Mary Beth Goodman has laid out, lacks a lot of capacities. So 
it's both a matter of them taking regulatory steps, but, as in 
the case of Afghanistan as well, the implementation is going to 
require the training and support that JIEDDO's going to be able 
to provide. It's going to require the training and support that 
DHS and others can provide.
    At the same time, I want to caution--and I may ask General 
Shields to say as well--as we move on ammonium nitrate, the 
enemy is adaptive. There will be other ways of coming after us 
with IEDs. This is a struggle which as we've gone through the 
past year's in Iraq and Afghanistan we've found that we have to 
keep looking ahead as well. I know that General Shields and his 
colleagues at JIEDDO are doing that as well.
    I look forward to coming back, and I'm sure my colleagues 
do as well, in really a matter of months, because I think we 
are on the prospect of progress. But I welcome your holding us 
accountable to that and having us come back and do this hearing 
again within, as I said, in a matter of months, to see if those 
prospects that we're describing have turned into the reality 
you're seeking.
    Senator Casey. Thank you.
    General, do you have anything you wanted to add to that?
    General Shields. Sir, just to echo the comments that have 
been made. JIEDDO continues to focus on gaps and 
vulnerabilities. We'll continue to focus on increasing the 
capacity and the capability of U.S. and coalition forces. As 
you know, we're providing support in Hornfels as well, and I 
think we need to continue to increase the capability of the 
Afghan security forces as well.
    We've talked comprehensive approach. How do you make it so 
expensive that it compels the threat to make a choice between 
that and making payroll? Those are some other things that we 
need to be looking at as well. But JIEDDO is focused on those 
gaps and vulnerabilities and we'll continue to maintain that 
focus and are training and assisting in support of CENTCOM both 
in theater with the RSOY piece as well as back in the States at 
our combat training centers. We've got a mobile training team 
capacity. We can bring the training to the forces in theater. 
We can bring it to them at host station. We support all of the 
COCOMs with that capacity as well.
    Senator Casey. Senator Coons.
    Senator Coons. Thank you.
    If I might, just a final question to Ms. Goodman. Given the 
dramatic amount of relief from the flooding that's going to be 
needed and that hopefully the United States is involved in 
delivering, both through relief agencies privately and through 
our government, I just want to make sure I understood. I was 
pleased to hear there was a conversation between Ambassador 
Holbrooke and President Zidari. Did Secretary Clinton also have 
the opportunity to press this issue, and what was the response 
of the Pakistani leadership and administration to this issue? 
And is there more that this body can or should be doing to help 
press the issue with the Pakistani government?
    Ms. Goodman. Senator, I was referring to the trip that 
we've just returned from. Actually, on Tuesday night Ambassador 
Holbrooke and I returned from Pakistan. So we were able to have 
some of these discussions as recently as this week with 
President Zidari and Prime Minister Gilani and other senior 
leaders in Pakistan. So they are aware of this issue now. It's 
not something that necessarily had been brought to their 
attention until several months, maybe a year ago. So now we're 
raising the awareness beyond just the military channels, but 
also the civilian channels in Pakistan, so that there is a more 
coordinated interagency response there and we can move forward 
on some of these regulatory issues with them through their 
national assembly.
    The followup will continue. I mean, this is something that 
we'll be raising on all of our trips out there. Secretary 
Clinton is certainly aware of the issue and has had 
conversations herself regarding this issue. But it is something 
that we continue to raise with the highest level of 
interlocutors there.
    Senator Coons. And you found them to be generally 
receptive, or----
    Ms. Goodman. Absolutely, sir. We've been working with the 
Ministry of Foreign Affairs and others to try and again do some 
education so that they see the implications of this, and also 
to make them aware of how concerned we are, but also of the 
internal dynamics that they face with their private sector on 
this issue. This is a legally traded good, so having to develop 
this regulatory process is something that they're looking at 
and will continue to follow up with us on.
    But they so far have been incredibly receptive to doing 
this. It's just a question of how do you do it, what's the best 
method of doing it. Again, we continue to have these 
conversations and we're going to continue to have them until we 
see some resolution on the ground.
    Senator Coons. Thank you.
    Thank you, Senator. Thank you, Mr. Chairman.
    Senator Casey. I know we have to wrap up. Thank you, 
Senator Coons. I appreciate your questions and being here at 
kind of a late hour for a hearing. In the Senate we don't often 
have hearings at this hour.
    Just by way of two or three things on summation, and I want 
to allow each of our witnesses a final comment if you would 
like. But on this question of engagement at the highest levels, 
I think it's critically important that Secretary Clinton, 
Secretary Gates, Secretary Napolitano at every possible level, 
that this gets raised and repeated. It's like everything else 
that we see every day of our lives. Unless we repeat ourselves 
and be that squeaky wheel and keep after this, it will drift.
    There's nothing that substitutes for the leader of a major 
U.S. Government agency, leaders of our government, raising it 
over and over again with the Pakistanis, just as we have to, 
members of the Senate as well, have to do that. And I'll 
continue to do that.
    I want to thank you for this testimony today. I don't know 
if any of our witnesses--do you have anything you want to add 
to your testimony? Of course, your full testimony will be made 
part of the record and we'll leave the record open for a number 
of days for other members to submit questions, and I'll 
certainly have written questions as well. But anything else 
that anyone wants to add?
    [No response.]
    Thank you very much. We're adjourned.
    [Whereupon, at 5:46 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
